OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/INDONESIA’S
MATERNAL AND CHILD HEALTH
INTEGRATED PROGRAM

AUDIT REPORT NO. 5-497-13-003-P
DECEMBER 11, 2012




MANILA, PHILIPPINES
Office of Inspector General


December 11, 2012

MEMORANDUM

TO:                  USAID/Indonesia Mission Director, Andrew B. Sisson

FROM:                Regional Inspector General/Manila, William S. Murphy /s/

SUBJECT:             Audit of USAID/Indonesia’s Maternal and Child Health Integrated Program
                     (Report No. 5-497-13-003-P)


This memorandum transmits our final report on the subject audit. In finalizing the audit report,
we considered your comments on the draft and have included those comments in Appendix II.

This report contains one recommendation to assist the mission in improving its oversight of the
Maternal and Child Health Integrated Program. A management decision was reached on that
recommendation. Please provide the Audit Performance and Compliance Division of USAID’s
Office of the Chief Financial Officer with evidence of final action to close the recommendation.

I wish to thank you and your staff for the cooperation and courtesies extended to us during the
course of this audit.




U.S. Agency for International Development
PNB Financial Center, 8th Floor
Pres. Diosdado Macapagal Blvd.
1308 Pasay City
Metro Manila, Philippines
http://oig.usaid.gov
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 3

     Some Reported Results Were Not Reliable ........................................................................... 3

Evaluation of Management Comments.................................................................................... 6

Appendix I—Scope and Methodology ..................................................................................... 7

Appendix II—Management Comments .................................................................................... 9




Abbreviations

The following abbreviations appear in this report:

JRISE           Jhpiego Result Information System
LAMAT           Local Area Monitoring and Tracking
MCHIP           Maternal and Child Health Integrated Program
SUMMARY OF RESULTS
In the area of global health, USAID has made reducing the mortality rate of mothers and
children under five a priority development objective. Although maternal and child mortality rates
have declined over the past decade in Indonesia, they are still considerably higher than those in
developed countries. According to the 2007 Indonesia Demographic and Health Survey, the
maternal mortality rate is 228 per 100,000 live births, and the infant mortality rate is 34 per
1,000 live births. By comparison, the United States has a maternal mortality rate of 13.3 and an
infant mortality rate of fewer than 6.

To contribute toward lowering Indonesia’s maternal and child mortality rates, USAID awarded
Jhpiego a total of $9.8 million in funding under the Maternal and Child Health Integrated
Program (MCHIP).1 MCHIP Indonesia covers a 3-year period from January 2010 through
December 31, 2012, with activities taking place in three remote districts throughout the country.
This includes the districts of Kutai Timur (East Kalimantan Province), Bireuen (Aceh Province),
and Serang (Banten Province), shown in yellow on the map below. Originally designed as a 2-
year, $4.8 million program, MCHIP’s funding increased to $9.8 million, and the mission
extended it by a year and expanded the scope. The program thus filled the gap between when
the mission’s Health Services Program ended (2010) and when the Expanding Maternal and
Neonatal Survival Project began (2012).

Jhpiego is implementing the program in collaboration with Save the Children and John Snow
Inc. As of March 2012, cumulative obligations and disbursements for activities in Indonesia
totaled $9.8 million and $5.6 million, respectively.


                                                            East Kalimantan
                    Aceh Province
                                                               Province




       Banten
      Province

USAID/Indonesia’s Maternal and Child Integrated Health Program is active in the three provinces
highlighted in yellow. (Map from USAID/Indonesia, MCHIP)




1
  The program is a 5-year, $600 million cooperative agreement awarded to Jhpiego. The goal is to
reduce maternal, infant, and child mortality rates in 30 countries, including Indonesia. This audit focused
exclusively on Indonesia.


                                                                                                         1
MCHIP Indonesia’s goal is to strengthen the implementation of existing policies or activities that
promote life-saving interventions in maternal, newborn, and child health care. To achieve this
goal, Jhpiego works with health-care workers, government officials, and community members to
focus on the following three subjects:

1. Improving maternal and newborn care in the community.
2. Improving the quality of clinical services provided to mothers and newborns.
3. Improving management of the district health system.

Some of the activities include standards-based management and recognition;2 kangaroo mother
care3 for underweight babies; management of pre-eclampsia and eclampsia conditions; active
management of the third stage of labor;4 community-integrated case management; early
initiation of breast-feeding; and integrated postnatal care. In addition, Jhpiego assists in
strengthening the use of maternal and child health data in decision making, drawn from a
government system known as Local Area Monitoring and Tracking (LAMAT).

While none of these activities are new to the Indonesian health-care system, their
implementation at the community level has been problematic and weak.

The objective of the audit was to determine whether the program was achieving its goal of
improving maternal, newborn, and child health-care services as noted above. Although MCHIP
has made some progress in training health-care workers, government officials, and community
members, it is not clear how much services have improved in the three districts covered by the
program. This is because some data was not reliable (page 3).

The report recommends that USAID/Indonesia, in conjunction with USAID’s Division of Maternal
and Child Health of the Office of Health, Infectious Diseases and Nutrition of the Global Health
Bureau:

1. Clearly define in writing all performance indicators established for the Maternal and Child
   Health Integrated Program, and update reported data to reflect the new definitions.

A detailed discussion of the audit finding appears in the following section. The scope and
methodology are described in Appendix I. USAID/Indonesia’s written comments on the draft
report are included in Appendix II. Our evaluation of these comments is on page 6.




2
  Standards-based management and recognition is an approach to health sector reform through
standards establishment and achievement, and developed by JHPIEGO with USAID funding.
3
  Kangaroo mother care refers to the practice of wrapping an underweight baby directly on one’s skin to
prevent hypothermia and to encourage weight gain.
4
  Active management of the third stage of labor is a process undertaken for vaginal births.


                                                                                                     2
AUDIT FINDINGS
Some Reported Results Were Not
Reliable
To be useful for performance management and credible for reporting, data should be valid,
reliable, and timely. Data should also be sufficiently precise, with a suitable level of detail, to
present a fair picture of performance and to help managers make decisions.5

Contrary to this guidance, however, data that Jhpiego reported to the mission and to the
program’s global reporting database were not reliable.

Data Quality of Host Government Database Was Problematic. Jhpiego relied on data from
the Indonesian Government’s health-care database, LAMAT, for 6 of the program’s
24 indicators. LAMAT’s data pertain to maternal, newborn, and child health status in a given
area. Midwife coordinators at subdistrict health clinics collected the data manually from
midwives in villages and entered them into LAMAT.

While Jhpiego relied on information in the LAMAT database, members of its staff, as well as
mission officials and local government health-care workers acknowledged that the information in
the system was not reliable. For example, in the Jeumpa subdistrict of Bireuen, local project
staff informed the audit team of the discrepancies they found between LAMAT and the
corresponding written records. As shown in Table 1 below, the differences were significant.

             Table 1. Comparison of Written and Computerized LAMAT Data for 2011
                                                Written Record     Computerized   Overstatement of
             Indicator Description
                                                     Data*         LAMAT Data*    Results (Percent)
    Number of Deliveries with a Skilled Birth
                                                       573             733                28
    Attendant
    Number of Newborns Who Receive
                                                       416             735                77
    Postnatal Visits in First Week of Life
    Number of Women Who Receive Postnatal
                                                       413             735                78
    Visits in First Week After Giving Birth
*These data were not substantiated during the audit.

Discrepancies in the LAMAT database, such as the examples cited in the table, were attributed
to not having enough health-care employees at the village level to collect data and not enough
trained staff at the subdistrict health clinics or district health offices to enter data into LAMAT in
an accurate, timely manner. In addition, the database was relatively new, and many health-care
employees preferred to use the old manual version of the system. Although flawed, mission
officials said the data were still useful in terms of showing general trends.



5
    Automated Directives System 203.3.5.1, “Data Quality Standards.”


                                                                                                      3
Performance Indicators Not Clearly Defined. Some indicators were poorly defined, which led
to reporting inaccurate data. For example, one indicator tracks the number of clinics treating
complex pregnancies. Jhpiego defined the clinics as either those certified by the Indonesian
Government to perform such activities or those that were not certified but had the capacity to
treat complex pregnancies, provided the clinic had the necessary staff, equipment, and
managed at least one complex pregnancy case per quarter.

However, the audit team found that one government-certified clinic no longer had the capacity to
treat complex pregnancies because it did not have trained medical staff, electricity, or
ambulance service. Nonetheless, Jhpiego included this clinic in its reported results.

Two other poorly defined indicators tracked the districts and subdistricts “scaling-up” or
expanding the program’s 11 activity interventions. In April 2011, MCHIP received an additional
$5 million, which increased funding to $9.8 million and extended implementation an additional
year, through December 2012. To account for the additional funding and time, the program
added a new subobjective aimed at implementing MCHIP activities throughout a broader
geographic area to reach more people.

The mission outlined this subobjective in the program’s implementation plan, stating that
MCHIP’s final year would focus on transferring knowledge and skills to other districts and
subdistricts, with the intent of those new areas implementing plans to scale up MCHIP activities.
Two performance indicators—one for districts and the other for subdistricts—were added to
monitor the progress of activities under the new subobjective

As of December 31, 2011, Jhpiego reported a total of 3 districts and 40 subdistricts scaling-up
program interventions against targets of 17 and 23 respectively. However achievement was
defined as those districts or subdistricts that have received technical assistance in at least 1 of
the 11 program activity interventions.

This narrow definition is inadequate. For example, the audit found that all reported locations
were either areas the program had been working in since it began or new locations that had
received training on only one program activity intervention. There was no indication that new
locations were developing plans to scale up or implement any program intervention. These
results are not useful to management and give the impression the program is expanding into
new areas—when in fact it has not made much progress.

Unsupported Data Submitted to MCHIP Global. USAID/Washington’s Division of Maternal
and Child Health of the Office of Health, Infectious Diseases and Nutrition is responsible for
overseeing the global MCHIP (hereafter referred to as the global program), which is being
implemented in 30 countries, including Indonesia. As part of the global program, MCHIP
Indonesia submits monthly updates on its progress to Jhpiego’s MCHIP headquarters in
Washington, D.C., through its reporting database, Jhpiego Result Information System (JRISE).
This global information is compiled and provided to USAID/Washington as annual reports.

The audit team found large discrepancies between what the Bireuen and Kutai Timur Districts
reported and what MCHIP Indonesia entered into JRISE, shown in Table 2 on the next page.
As a result, the program had reported unreliable data to Washington.




                                                                                                 4
          Table 2. Comparison of Reported Results for October through December 2011
                                                            Results
                                                                        Results
                                                           Reported                Overstatement
            Indicator Description             District                 Reported
                                                             from                    (Percent)
                                                                       in JRISE*
                                                           District*
                                              Bireuen        842        2,650          215
    Number of Deliveries with a Skilled
    Birth Attendant
                                             Kutai Timur     302         972           222

                                              Bireuen        900        2,307          156
    Number of Newborns Who Receive
    Postnatal Visits in First Week of Life
                                             Kutai Timur     289         982           240

    Number of Women Who Receive               Bireuen        890        2,327          161
    Postnatal Visits in First Week After
    Giving Birth                             Kutai Timur     290        1,020          252

*These data were not substantiated during the audit.

Jhpiego officials said these discrepancies occurred because they occasionally used estimated
figures in reporting since data from the field were often months behind. By doing so, however,
the quarterly data they reported for the global program were overstated.6

This might not have happened if MCHIP’s global performance management plan had been
followed. According to that plan, the mission was required to perform a data quality
assessment. Mission officials said they did not do one because of the short-term nature of the
program. However, when the program was extended for a third year—and its budget doubled—
the mission still made no plans to perform a data quality assessment. While the mission
dropped some indicators because of concerns about the data and performed other monitoring
activities such as site visits and a midterm implementation assessment, such actions would not
replace a rigorous examination conducted during a data quality assessment.

Since the program will be ending soon, we are not recommending a formal data quality
assessment. However, the mission should be cognizant of problems with data quality and take
proactive measures to minimize deficiencies in new programs like the $55 million Expanding
Maternal and Neonatal Survival Program.

Without accurate data and clearly defined indicators, mission officials cannot make effective
programming decisions. We therefore make the following recommendation.

       Recommendation 1. We recommend that USAID/Indonesia, in conjunction with
       USAID/Division of Maternal and Child Health of the Office of Health, Infectious Diseases
       and Nutrition of the Global Health Bureau, work with Jhpiego to define in writing all
       performance indicators established for the Maternal and Child Health Integrated
       Program and update reported data to reflect those definitions.

6
  As part of its recent management comments, subsequent to audit fieldwork, the mission provided
additional unaudited data on an annual basis that indicated smaller or no discrepancies.


                                                                                                   5
EVALUATION OF MANAGEMENT
COMMENTS
RIG/Manila has reviewed the mission’s response to the draft report and determined that a
management decision has been reached on the report’s recommendation. Our evaluation of
comments on the recommendation is below.

In response to Recommendation 1, mission officials said they would “ensure that the final
indicators and their definitions for MCHIP Indonesia are complete, and will update the final
reported data against those indicators as feasible with existing data collected from the field.”
They further reiterated that the mission would “ensure that the final MCHIP Indonesia indicators
have complete definitions, and that the final quarterly and annual reports are against these
indicators.” Therefore, we conclude that a management decision has been reached. Final
action will be achieved when the mission completes the actions noted above, which should be
no later than November 30, 2013.

As part of its response, the mission has provided suggested refinements to the wording in some
sections of the report. In certain cases, we were able to make minor adjustments. The mission
also elaborated on some activities that have either taken place since audit fieldwork or are
scheduled to occur in 2013 after the program ends. Furthermore, the mission has provided
additional explanations regarding data problems and discrepancies in documentation while at
the same time acknowledging that some indicators were not well-defined or had weak data
collection at the local level.




                                                                                              6
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether USAID/Indonesia’s Maternal and Child
Health Integrated Program was improving maternal, newborn, and child health-care services.

In September 2008 USAID awarded Jhpiego a $600 million leader with associate award to
implement MCHIP in 30 countries. USAID/Indonesia participated in this program through a field
support activity mechanism and obligated $9.8 million for the 3-year period from January 2010
through December 31, 2012. This audit covers only the amount obligated for Indonesia. As of
December 31, 2011, cumulative obligations and disbursements there totaled $9.8 million and
$5.8 million, respectively.

The audit covered program activities over roughly a 2-year period from January 2010 through
December 31, 2011 (the latest available formal reporting period). Ongoing program activities
through March 2012 also were covered to the extent that data were available. In general, the
audit involved conducting site visits to selected activity sites to observe activities and interview
partners and beneficiaries. The audit also made an effort to validate reported results for
selected performance indicators through substantive testing and analytical procedures;
however, this was limited in effectiveness because of problems with the quality of data from
Jhpiego and the Indonesian Government. Since this testing was based on a judgmental―not a
statistical―sample, the results and overall conclusions related to this analysis were limited to
the items tested and cannot be projected to the entire audit universe.

As part of the audit, we assessed the significant internal controls USAID/Indonesia used to
monitor program activities. The assessment included determining whether the mission (1) had an
approved monitoring and evaluation plan in place, (2) required and approved an implementation
plan, and (3) conducted and documented site visits to evaluate progress and monitor quality. We
also examined the mission’s fiscal year 2011 annual self-assessment of management controls,
which the mission is required to perform to comply with the Federal Managers’ Financial
Integrity Act of 1982, to determine whether the assessment cited any relevant weaknesses.

Audit fieldwork was performed at the USAID/Indonesia mission as well as at the implementer’s
office in Jakarta from March 5 through 30, 2012. During that period, the audit went to the three
project districts to conduct site visits to observe program activities and interview beneficiaries,
Jhpiego employees, and district government officials. During these site visits, the auditors
obtained input from doctors and midwives in villages, health centers, and hospitals.




                                                                                                  7
Methodology
To determine whether the program was achieving its goal, the audit team initially interviewed
key staff in USAID/Indonesia’s Office of Health and at the implementer’s office to gain an
understanding of the program, the key players, their roles and responsibilities, and the reporting
procedures and controls in place for monitoring the program. Additional work to answer the
audit objective focused on conducting field trips to the three program supported districts to
observe activities and interview a sample of program beneficiaries. Analytical procedures were
also conducted in conjunction with a review of documents in an effort to validate data reported
under selected performance indicators.

To view a wide range of program activities, the audit team observed training sessions and
meetings with the intended beneficiaries, interviews with the village and subdistrict health center
midwives, nurses, and doctors, and beneficiaries. Additionally, the team solicited feedback on
the program’s level of support and interaction from district hospitals and village centers where
the program conducts activities.

To assess the test results, the audit team established a materiality threshold of 85 percent that
was based in part on the challenging environment in which the program operated. For example,
if at least 85 percent of tested results data reported under a specific performance indicator for a
selected province were found to be adequately supported, the auditors concluded that the
reported results were reasonably accurate.




                                                                                                 8
                                                                        Appendix II



MANAGEMENT COMMENTS


                                                        Nov 9, 2012

MEMORANDUM

TO:            William S. Murphy, Regional Inspector General/Manila
FROM:          Nancy Fisher-Gormley, Acting Mission Director
SUBJECT:       Draft Report on the Audit of USAID/Indonesia’s Maternal and
               Child Health Integrated Program (Audit Report No. 5-497-12-
               XXX-P)

As requested in your October 12 Memorandum, the following are the Mission’s
comments on the draft audit report. We appreciate the opportunity to comment on
this report and for the time your staff took to prepare it. While USAID/Indonesia
accepts the recommendation of the report, several factual statements need to be
corrected, and the auditors findings and recommendations should be adjusted to
reflect those corrections.

USAID/Indonesia’s comments on the draft report follow as well as recommended
corrections in the order in which they are presented in the report:

1. P. 1 par. 2: This paragraph mischaracterizes the project by not making clear
   that the MCHIP program is a Washington awarded program and the
   USAID/Indonesia activity was one component of a larger effort. The
   evolutionary nature of USAID/Indonesia’s investment in this
   USAID/Washington project is essential to understanding the performance of
   the project – its initial use as a “bridge” between two bilaterally procured
   project, and a later extension of that bridge with a doubling of funding that
   expanded the scope of activities, and the other management and oversight
   changes that happened at the time of that expansion. The Mission recommends
   this paragraph to read as follows:



                                                                                    9
     MCHIP is a 5-year, $600 million cooperative agreement awarded to
     JHPIEGO by USAID/Washington for activities in multiple countries.
     The goal is to reduce maternal, infant, and child mortality rates in 30
     countries, including Indonesia. The USAID/Indonesia Mission bought
     into this award in 2010 with $4.8 million for 2 years to bridge the
     time between the closeout of the Health Services Program (HSP) and
     the startup of a new maternal and child health award. When the new
     award was delayed in procurement, USAID/Indonesia expanded the
     support to MCHIP with an additional $5 million for an extra year,
     and expanded the scope of activities. The result was a 3-year bridge
     maternal and child health project, running from January 2010 to
     December 2012. Project implementation is in three remote districts
     throughout the country: Kutai Timur (East Kalimantan Province),
     Bireuen (Aceh Province), and Serang (Banten Province).The
     provinces are shown in yellow on the map below.

2. P.2 Par 1: This first sentence does not accurately convey the role of MCHIP
   within the current Indonesian context given decentralization. This sentence
   should be reworded as follows:
         “MCHIP Indonesia’s goal is to strengthen the implementation of existing
         policies or activities that promote life-saving interventions in maternal,
         newborn, and child health care at the decentralized level”.

3. P. 2 Par 4 “The objective of the audit...”: The Mission does not agree with
   the statement, “Although MCHIP has made some progress in training health-
   care workers, government officials, and community members, it is not clear
   how much maternal, newborn and child health-care services have improved in
   the three districts […] because data was not reliable.” This mischaracterizes
   the project as a training project, and casually dismisses all of the positive
   results reported against various indicators in order to focus on the indicators
   that the auditors felt were “unreliable.”

   MCHIP Indonesia, in addition to high-quality training of various levels of
   health workers in key interventions, also implemented an individual and
   facility-based self-assessment tool called “SBM-R” which, in the absence or
   regular supportive supervision, benchmarks the performance of workers
   against themselves to monitor progress, and became a centerpiece in many of
   the “MCHIP facilities.” MCHIP produced job-aids and guidelines for
   implementation of key interventions; established functioning midwife-TBA
   partnerships in implementation areas to ensure a culturally appropriate

                                                                                 10
       experience with skilled birth attendants; worked with facilities to improve their
       capacity of reporting and measuring various indicators, including working with
       the new electronic LAMAT (Local Area Monitoring and Tracking) system;
       worked with community and district leadership to ensure sustainable evidence-
       based planning including assisting with drafting local laws linked to budget
       allocation (Perdes); improved use of maternal and perinatal audit under the
       new government policy and political support for continued prioritization of
       MCH in implementation districts. Indicators within the direct manageable
       interest of MCHIP performed well.

       The Mission recommends that P2. Par 4 be replaced with the following
       corrected language:

          The objective of the audit was to determine whether the program was
          achieving its goal of improving maternal, newborn, and child health-
          care services. MCHIP Indonesia had a broad scope of work in
          maternal and child health which included training of various levels of
          health workers in key interventions, implementation of an individual
          and facility-based self-assessment tool called “SBM-R” which, in the
          absence of regular supportive supervision, benchmarks the
          performance of workers against themselves to monitor progress,
          produced job-aids and guidelines for implementation of key
          interventions; established functioning midwife-TBA7 partnerships in
          implementation areas to increase the number of deliveries with skilled
          birth attendants; worked with facilities to improve their capacity of
          reporting and measuring various indicators, including working with
          the new electronic LAMAT system; worked with community and
          district leadership to ensure sustainable evidence-based planning
          including assisting with drafting local laws linked to budget
          allocation (“Perdes”); improved use of maternal and perinatal audit
          under the new government policy and political support for continued
          prioritization of MCH in implementation districts. Indicators within
          the direct manageable interest of MCHIP performed well. However,
          some indicators were not well-defined or had weak data collection at
          the local level. These indicators were less reliable, making it difficult
          to draw conclusions about the impact of the project against these
          areas.


7
    Traditional Birth Attendants


                                                                                      11
    4. P. 3 – Audit Findings – Title: The Mission recommends adding “Some” to the
       title, “Some reported results were not reliable.”

    5. P. 3 par 3: The report states that the project relied on local data for “6 of the
       24” indicators. The fact of using local indicators is not a finding in the opinion
       of the Mission, since many projects use local data when it is already being
       collected to avoid duplication of effort, and will typically work to strengthen its
       collection and do various kinds data validation on it. The Mission recommends
       that this paragraph be changed to read as follows:

         Data Quality of some government indicators was problematic. In
         addition to collecting indicators directly related to project
         implementation, Jhpiego also collected data from the Indonesian
         Government’s health-care database, LAMAT, for 6 of the program’s
         24 indicators to measure impact at the higher level. LAMAT data
         pertain to maternal, newborn, and child health status in a given area.
         LAMAT has been used for years as a manual system, and only
         recently was the electronic database version introduced. Because
         there has not yet been adequate training in the electronic system,
         government officials typically continue to rely on manual LAMAT
         entered into the SP2TP (integrated planning and reporting system)
         which is submitted to the District Health Office (DHO) from the
         health centers. While its weaknesses are recognized by the MCHIP
         and the Mission, it is believed to be useful to monitor trends in MCH
         over time in areas outside the direct control of MCHIP (e.g. numbers
         of births with skilled birth attendants, postnatal visits, etc.)
.


    6. P. 3 par 4, Table 1 and Par 5: The report states that Mission officials and
       local government acknowledged the information was not reliable. This
       mischaracterizes the conversations about LAMAT. Programmatically, MCHIP
       was working with the government facilities and district health office to
       strengthen the LAMAT system (Ref: Sub-objective 4 of the project). The need
       for training to strengthen the system was well-represented by MCHIP in the
       example in the report, but does not accurately reflect the sources of MCHIP’s
       reporting data.

       The Mission recommends removing these paragraphs and Table 1, finding the
       above recommended paragraph sufficient description of LAMAT as a reporting
       source.


                                                                                       12
7. P. 4 par 2: second sentence should read as follows, “ In April 2011 MCHIP
   received an additional $5 million, which extended implementation an
   additional year, and expanded the scope of the project.” (delete unnecessary
   reference to $9.8 million and clarify that the project was not just extended
   temporally, but in (geographic and technical) scope as well.

8. P. 4 par 3: The report states that, “However achievement was defined as those
   districts or subdistricts that have received technical assistance in at least one of
   the 11 program activity interventions. This narrow definition is inadequate.
   For example, the audit found that all reported locations were either (1) areas
   the program had been working in since it began or (2) new locations that had
   received training on only one program activity intervention. There was no
   indication that new locations were developing plans to scale up or implement
   any program intervention. Such reported results are not useful to management
   and give the impression the program is expanding to new areas, when very
   little progress has been made.”

   This paragraph mischaracterizes the scale-up plan for MCHIP. At the time of
   the audit, the Mission was working with MCHIP on a “Mini University” scale-
   up strategy that would not be implemented until mid-2013 in the 3 districts.
   The Mission was aware that this was underway, and knew that there were no
   districts or sub-districts that would be counted against this indicator until the
   very end of the project. Because the Mini University was still being designed at
   the time of the auditor’s visit, the definition was made broad – to include one
   key area of intervention. This was realistic, given the short time-frame of the
   scale-up activity, and the desire to do at least one thing well in each expansion
   area. In the end, the Mini Universities were successful, with broad
   participation, and scale-up districts selecting and focusing on one key area. The
   audit finding that this had not been done yet is not a relevant finding, since the
   Mission knew exactly what the scope of work and timeline for this activity
   was.

   The Mission recommends that this example be removed from the final report.

9. P. 4 par 5, Table 2 and p. 5 par 1: Table 2 and the conclusions in par 5 on p.
   4 and par 1 on p. 5 are inaccurate. Please reference the attached table which is
   what was actually reported and shown to the auditors. The table below
   summarizes this information and is a correction of Table 2 in the draft audit
   report. In the audit report, the numbers in the 3rdcolumn labeled, “Results


                                                                                     13
    Reported from District” are numbers from Oct-Dec 2011. The numbers in the
    4thcolumn labeled, “Results reported in JRise” are cumulative from January-
    December 2011. The attached table shows reporting from both districts both
    for the Oct-Dec quarter, and the 12-month cumulative as reported. From the
    summary table below, comparing reporting from the district over the 12-year
    cumulative period from the district and within JRise, it is clear that there was
    no “overstatement” as claimed by this report.

Table 1. Revised Comparison of Reported Results for January through December 2011
                                                           Results        Results
                                                                                      Overstatement
        Indicator Description             District        Reported      Reported in
                                                                                          (%)
                                                       from District*    JRISE*
                                          Bireuen          2,650           2,650           0%
Number of Deliveries with a Skilled
Birth Attendant                          Kutai Timur        987            972             0%

Number of Newborns Who Receive            Bireuen          2,567           2,307           0%
Postnatal Visits in First Week of Life
                                         Kutai Timur        970            982            1.2%

Number of Women Who Receive               Bireuen          2563            2,327           0%
Postnatal Visits in First Week After
Giving Birth                             Kutai Timur       1031            1,020           0%


    The Mission recommends that these paragraphs and this table be removed from
    the final report.

10.P. 5 par 2: The report states that, “Data problems in the program may have
   been reduced if MCHIP’s global performance management plan had been
   followed. According to that plan, the mission was required to perform a data
   quality assessment. However, mission officials said they did not do one
   because of the short-term nature of the program. However, when the program
   was extended for a third year—and its budget doubled—the mission still made
   no plans to perform a data quality assessment.”

    The Mission does not agree with this statement, and believes it completely
    mischaracterizes the actions and intent of the Mission in its management of
    MCHIP. At the same time as the Mission added additional funds into MCHIP
    (April 2011), MCHIP Indonesia was undergoing a mid-term assessment from
    the USAID/Washington office, which looked at various aspects of the
    implementation including monitoring and evaluation. Additional actions that
    were taken:



                                                                                                      14
     1) August 2011 – Site visit to Kutai Timur by USAID Indonesia – report
        includes findings and recommendations on collection of data and
        program implementation
     2) June 2011 – internal consultant Marge Koblinsky reviews entire set of
        MCHIP Indonesia indicators to validate what they are measuring
     3) October 2011 – site visit to Serang by USAID Indonesia, report including
        findings and recommendations to strengthen programming and M&E.
     4) January 2012 – intensive review process and “finalization” of indicator
        list by USAID with MCHIP following receipt of Oct-Dec 2011quarterly
        report.

   Before the project was extended, there was no requirement to do a DQA, due
   to its “short-term nature” as stated in the report. After the project was
   expanded, the DQA was not done because the mid-term review was being
   conducted, as well as other monitoring activities. The Mission believes that
   MCHIP Washington was in fact following its performance management plan in
   conducting the mid-term review.

   The Mission recommends that the language in this paragraph be changed to
   better reflect the actions and intent of the mission vis a vis data quality
   management:

     While the mission did not perform a data quality assessment after
     extending MCHIP for a third year, other monitoring activities did
     take place, some of which overlapped with the requirement for a DQA
     in the performance monitoring plan. Had the mission conducted a
     DQA, some of the data reporting problems may have been reduced
     sooner.

11.P. 5 par 2: The report states that, “instead [of a DQA], the mission dropped 3
   of the 27 indicators MCHIP was reporting because of concerns about data
   quality.”

   This statement is mischaracterizes why the number of indicators changed. Over
   the course of in-depth review of the indicators with MCHIP, several indicators
   were changed to clarify denominators, refine definitions, and validate sources
   of data collection. Others were dropped based on concerns about the ability to
   collect high-quality data or redundancy. This was not done to evade a DQA,
   and was, in fact, a sign that thorough review of the strength of indicators was
   happening – something that a complete DQA would likely also have done.

                                                                                 15
    The Mission recommends that this statement be dropped (as in the
    recommended paragraph above).

The Audit report makes the following single recommendation:

Recommendation No.1: We recommend that USAID/Indonesia, in conjuction
with USAID’s Division of Maternal and Child Health of the Office of Health,
Infectious Diseases and Nutrition of the Global Health Bureau, work with the
implementer to define in writing all performance indicators established for the
Maternal and Child Health Integrated Program and update reported data to reflect
those definitions.

Response: The USAID Indonesia Mission notes that the project has terminated
field work in the three implementation districts as of October 31, 2012. The project
will end its country presence in December, 2012. The USAID/Indonesia Health
Office nonetheless will ensure that the final indicators and their definitions for
MCHIP Indonesia are complete, and will update the final reported data against
those indicators as feasible with existing data collected from the field.

The Mission also notes that in the final debrief to the Mission Director, auditors
stated orally that “had they known” the project in Indonesia was to end in
December 2012, they may not have performed the audit, yet this fact was presented
to them prior to their arrival.

Action 1: Ensure that the final MCHIP Indonesia indicators have complete
definitions, and that the final quarterly and annual reports are against these
indicators.

Mission Recommendation:
Based on the actions undertaken, we recommend RIG/Manila determine that a
mission management decision has been reached upon the issuance of this audit
report recommendation. A closure request will be submitted to the Office of the
Chief of Financial Officer, Audit Performance and Compliance Division
(M/CFO/APC) with supporting documents to substantiate the request.

In summary, the mission accepts the recommendation reported by the RIG/Manila
audit team. We thank you for the opportunity to allow the mission to provide
comments on the draft audit report.



                                                                                  16
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
